ANEXO DE TASAS Y CARGOS DEL CONTRATO DE TARJETA DE CRÉDITO DILLARD’S
A partir del 13 de febrero de 2021
Tasas de Interés y Cargos por Intereses
Tasa Porcentual Anual (APR, por
sus siglas en inglés) para Compras
Esta Tasa APR variará con el mercado conforme a la Tasa Preferencial de EE. UU. (“Tasa Índice”).
Cómo evitar pagar intereses sobre Su fecha de vencimiento es al menos 23 días después del cierre de cada ciclo de facturación. No
compras
le cobraremos intereses sobre las compras si usted paga la totalidad de su saldo cada mes a más
tardar en la fecha de vencimiento.
Cargo Mínimo por Intereses
Si se le cobran intereses, el cargo no será inferior a $1.00.

Tasa de interés preferencial de los EE. UU. + 21.74%

Cargos
Cuota Anual
Cargos por Penalidad
• Pago Atrasado

Ninguno
Hasta $40.00

Cómo calcularemos su saldo: Usamos un método denominado “saldo diario promedio (que incluye nuevas compras).” Consulte su
Contrato para obtener más detalles.
Derechos en relación con la facturación: Puede encontrar información sobre sus derechos para disputar transacciones y cómo ejercer
esos derechos en su Contrato.
Cómo calcularemos su cargo por pago atrasado: El cargo será el monto que resulte menor entre el Pago Mínimo Total Adeudado o
$29.00. Para cualquier evento posterior que ocurra en el transcurso de un período ininterrumpido de seis ciclos de facturación, el cargo será
el monto que resulte menor entre el Pago Mínimo Total Adeudado o $40.00.
Cómo calcularemos sus Tasas APR Variables: Las Tasas APR usadas para calcular los intereses para compras en su Cuenta se calculan
sumando un margen de 21.74 puntos porcentuales a la Tasa Preferencial de EE. UU. para ese Ciclo de Facturación. La tasa varían con el
mercado conforme a la Tasa Preferencial de EE. UU. Consulte su Contrato para obtener más detalles.
La información relacionada con el costo del crédito descrito en este Contrato es correcta al mes de febrero de 2021. Es posible que la
información haya cambiado después de dicha fecha. Para obtener información sobre los posibles cambios, llame al 1-866-834-6294.
Cálculo de la Tasa de Interés Variable
Tasa Índice vigente a partir del 01/01/2021

3.25%

Margen sumado a la Tasa Índice para determinar su Tasa APR para Compras

21.74%

Tasa APR para Compras

24.99%

1 of 5

6102OA-S DILLARDS PL 0221

CONTRATO DE TARJETA DE CRÉDITO DILLARD’S
Aviso a los Titulares de tarjeta de California
A nuestros clientes de California que hayan conversado sobre los términos y condiciones de la
tarjeta de crédito con nosotros en español, chino, coreano, vietnamita o tagalo:
Lean la sección titulada CERTIFICACIÓN DE INTÉRPRETE antes de usar su Cuenta.
Read the section titled INTERPRETER CERTIFICATION before you use your Account.
請您在使用您的帳戶之前閱讀標題為「翻譯員認證」的章節。
계좌를 사용하시기 전에 “통역사 증명” 항목을 읽으시기 바랍니다.
Hãy đọc phần có tựa đề XÁC NHẬN VỀ THÔNG DỊCH VIÊN trước khi quý vị sử dụng Trương
mục của mình.
Basahin ang seksiyong may pamagat na SERTIPIKASYON NG TAGAPAGSALING-WIKA bago mo
gamitin ang iyong Account.
Estos términos se aplican a toda su Cuenta.
Acerca de su Cuenta
CONTRATO. Este Contrato de Tarjeta de Crédito (el “Contrato”) cubre el uso de su Cuenta de
Tarjeta de Crédito (la “Cuenta”) con nosotros. Incluye los Términos Importantes de su Cuenta
de Tarjeta de Crédito. Usted acepta los términos de este Contrato al abrir o usar su Cuenta.
Su firma en su solicitud u oferta para esta Cuenta, incluidas, a modo de ejemplo, cualquier
firma electrónica o digital, así como su firma en Comprobantes de Venta o en cualquier
documento relacionado con la Cuenta, representa su firma en este Contrato. Lea este Contrato
detenidamente y guárdelo para futura referencia.
PARTES DE ESTE CONTRATO. Este Contrato se celebra entre Wells Fargo Bank, N.A., P.O. Box
10347, Des Moines, IA 50306 (“nosotros”, “nos” y “nuestro[a]”) y el titular de cuenta (“usted” y “su”).
CÓMO COMUNICARSE CON NOSOTROS. A menos que se indique lo contrario en este Contrato,
usted puede comunicarse con nosotros llamando al número de teléfono o escribiendo a la
dirección que aparecen en su estado de cuenta.
DEFINICIONES.
Ciclo de Facturación
Intervalo entre los estados de cuenta. Cada estado de cuenta
muestra una fecha de cierre. La fecha de cierre del estado
de cuenta es el último día del Ciclo de Facturación para ese
estado de cuenta.
Tarjeta
La tarjeta de crédito que podemos emitir para usar su Cuenta.
Términos Importantes de su Un resumen de las Tasas Porcentuales Anuales (APR), los
Cuenta de Tarjeta de Crédito cargos y otra información importante de su Cuenta.
Nuevo Saldo
El Saldo Pendiente a la fecha de cierre del estado de cuenta.
Saldo Pendiente
La suma de todos los montos impagos, incluidas compras,
intereses, cargos y cualquier otro monto que usted pueda
adeudarnos.
Dirección de Pago
La dirección donde usted envía su pago por correo postal. Se
encuentra en su Talonario de Pago.
Fecha de Vencimiento del
La fecha en la que vence el Pago Mínimo Total Adeudado.
Pago
Aparece en su estado de cuenta.
Talonario de Pago
La parte de su estado de cuenta que debe enviarnos con su
pago.
Comprobante de Venta
Todo documento que describa los términos de una compra
en la Cuenta.
PERSPECTIVA GENERAL DE LA CUENTA. Su Cuenta puede dividirse en dos o más saldos.
Pueden aplicarse diferentes términos a diferentes saldos.
USO DE SU CUENTA. Usted puede usar su Cuenta para realizar compras en los establecimientos
Dillard’s, incluido el sitio Web de Dillard’s. Las compras formarán parte del saldo regular, a menos
que un Comprobante de Venta de Dillard’s indique que se aplican términos del Plan Club. Si se
aplican los términos del Plan Club, la compra formará parte del saldo de un Plan Club. Los Planes
Club se describen más adelante en este Contrato (consulte la sección Planes Club).
Usted promete que usará su Cuenta solamente para fines legales personales, familiares o de
la unidad familiar.
PROMESA DE PAGO. Cuando usted usa su Cuenta o le permite a otra persona usarla, usted
promete pagar el monto total de la compra, como también los intereses, cargos u otros montos
que pueda adeudarnos. Podremos limitar o cerrar su Cuenta, pero los términos de este Contrato
se aplicarán hasta que la Cuenta se haya pagado por completo.
LÍMITE DE CRÉDITO. Asignaremos un Límite de Crédito a su Cuenta. Un Límite de Crédito es
el monto de crédito que le extenderemos en su Cuenta. Su Límite de Crédito se proporciona
con su Tarjeta y en cada estado de cuenta. Usted promete usar su Cuenta solamente hasta el
Límite de Crédito. Si usted excede su Límite de Crédito, podríamos autorizar la transacción sin
aumentar su Límite de Crédito. Si usted excede su Límite de Crédito, seguirá siendo responsable
de todos los montos pagaderos en virtud de este Contrato. Nosotros podemos ajustar su Límite
de Crédito en cualquier momento.
Cargos e Intereses
CARGOS. Usted acuerda pagar los siguientes cargos. Encontrará los montos de los cargos en
los Términos Importantes de Su Cuenta de Tarjeta de Crédito.
• Cargo por Pago Atrasado. Este cargo puede cobrarse cada vez que no recibamos el Pago
Mínimo Total Adeudado a más tardar en la Fecha de Vencimiento del Pago. Este cargo se
cargará a su saldo regular.
TASAS DE INTERÉS. Las tasas periódicas diarias se calculan dividiendo cada Tasa APR aplicable
por 365. Las Tasas APR usadas para calcular el interés sobre los saldos aparecen en los Términos
Importantes de su Cuenta de Tarjeta de Crédito.

TASA PREFERENCIAL. La Tasa Preferencial que usamos es la Tasa Preferencial de EE. UU.
publicada en la sección “Money Rates” del periódico The Wall Street Journal. Nosotros
seleccionamos la Tasa Preferencial publicada el primer día laborable del mes previo al mes de
la fecha de cambio de la tasa trimestral. Si se publica más de una Tasa Preferencial, usaremos
el promedio de las Tasas Preferenciales. Si la Tasa Preferencial no se publica más o no está
disponible, podemos seleccionar una tasa similar. La Tasa APR aumentará o disminuirá si la Tasa
Preferencial aumenta o disminuye, y esto también hará que la tasa periódica diaria aumente o
disminuya. Un aumento o una disminución en la Tasa APR aumentarán o disminuirán el monto
total de intereses que usted pague. También puede aumentar o disminuir el Pago Mínimo
Total Adeudado. La fecha de cambio de tasa de cada trimestre es el primer día del primer Ciclo
de Facturación que comienza el 1 de enero, 1 de abril, 1 de julio y 1 de octubre o después de
esas fechas.
CUÁNDO COBRAMOS INTERESES. A menos que se especifique lo contrario más adelante,
comenzamos a cobrar intereses sobre una compra o cargo por intereses en la fecha en que
la compra o el cargo por intereses se registren en su Cuenta. Comenzamos a cobrar intereses
sobre un cargo el primer día del Ciclo de Facturación que sigue al Ciclo de Facturación en el que
el cargo se registre en su Cuenta. Sin embargo, si se registra un cargo por pago atrasado en su
Cuenta en el Ciclo de Facturación actual, pero se relaciona con un pago atrasado del Ciclo de
Facturación anterior, comenzaremos a cobrar intereses sobre el cargo el primer día del Ciclo
de Facturación actual.
CÓMO EVITAR PAGAR INTERESES SOBRE LAS COMPRAS. Salvo lo descrito en la sección
Planes Club más adelante, para evitar pagar intereses sobre las nuevas Compras, tendrá que
pagar la totalidad de su Nuevo Saldo a más tardar en la Fecha de Vencimiento que figura en
su estado de cuenta en cada Período de Facturación.
CÓMO CALCULAMOS LOS INTERESES: MÉTODO DEL SALDO DIARIO PROMEDIO
(INCLUIDAS NUEVAS COMPRAS). El cargo total por intereses es la suma de los cargos por
intereses para cada tipo de saldo en su Cuenta (p. ej., saldo regular). Calculamos el cargo por
intereses para cada tipo de saldo en su Cuenta aplicando la tasa periódica diaria al saldo diario
promedio (“ADB,” por sus siglas en inglés). Luego, multiplicamos este monto por la cantidad de
días del Ciclo de Facturación.
Cargo por intereses = tasa periódica diaria x ADB x cantidad de días del Ciclo de Facturación.
Los ADB para cada tipo de saldo se calculan por separado, comenzando con el saldo inicial el
primer día de cada Ciclo de Facturación. El saldo inicial el primer día del Ciclo de Facturación
incluye lo siguiente:
• El saldo final del Ciclo de Facturación anterior, que incluye todo cargo impago registrado en
su Cuenta en el Ciclo de Facturación anterior.
• Todo cargo por pago atrasado registrado en el Ciclo de Facturación actual que se relaciona
con un pago atrasado en el Ciclo de Facturación anterior.
Para obtener el ADB para cada tipo de saldo, tomamos el saldo inicial de cada día y le sumamos
todas las nuevas compras. A excepción del primer día de cada Ciclo de Facturación, sumamos
un interés igual al saldo del día anterior multiplicado por la tasa periódica diaria. (Esto quiere
decir que el interés es de capitalización diaria). Luego, restamos todo pago o abono. Esto nos
da el saldo diario. Cualquier saldo diario que sea un saldo de crédito se tratará como saldo en
cero. Después sumamos todos los saldos diarios para el Ciclo de Facturación. Dividimos este
monto por la cantidad de días del Ciclo de Facturación. Esto nos da el ADB.
ADB = suma de los saldos diarios ÷ la cantidad de días en el Ciclo de Facturación.
CARGO MÍNIMO POR INTERESES. Si se le cobran intereses en un Ciclo de Facturación, el cargo
no será inferior a $1.00.
Pagos
PAGO MÍNIMO TOTAL ADEUDADO. Usted promete realizar el Pago Mínimo Total Adeudado a
más tardar en la Fecha de Vencimiento del Pago. El Pago Mínimo Total Adeudado será el monto
que resulte mayor entre (A) o (B), más (C):
(A) $29.00 (o $40.00 si no recibimos el Pago Mínimo Total Adeudado a más tardar en la Fecha de
Vencimiento del Pago en cualquiera de los seis Ciclos de Facturación anteriores)
(B) La suma de:
• Todo monto atrasado; más
• Todo cargo aplicado durante el Ciclo de Facturación actual; más
• 1% del nuevo saldo (sin incluir el saldo de cualquier Plan Club); más
• La suma de todos los cargos por intereses en el Ciclo de Facturación actual
(C) El (los) pago(s) para los saldos de cualquier Plan Club 12 o Plan Club 24 (consulte la sección
Planes Club).
El Pago Mínimo Total Adeudado nunca será superior al Nuevo Saldo. Si usted paga más que
el Pago Mínimo Total Adeudado, pero menos que el Saldo Pendiente, aun así deberá pagar el
Pago Mínimo Total Adeudado en el Ciclo de Facturación siguiente.
INSTRUCCIONES DE PAGO. Siga estas instrucciones cuando realice un pago:
• Realice su pago en dólares estadounidenses, pero no envíe efectivo.
• Si usted realiza un pago por correo postal, incluya el Talonario de Pago con su pago. Use
el sobre que se incluye con su estado de cuenta para enviar por correo postal ambos
documentos a la Dirección de Pago. Los pagos recibidos a más tardar a las 5:00 p.m., hora
local, en la Dirección de Pago se abonarán en la fecha en que se reciban. Los pagos recibidos
después de la hora de corte de las 5:00 p.m. se abonarán al día siguiente. Cuando proporciona
un cheque como forma de pago, usted nos autoriza a usar la información de su cheque para
realizar una transferencia electrónica de fondos por única vez de su cuenta o para procesar el
pago como una transacción con cheque. Cuando usamos la información de su cheque para
realizar una transferencia electrónica de fondos, los fondos pueden retirarse de su cuenta el
mismo día en que recibimos su pago, y su institución financiera no le devolverá el cheque.
Su estado de cuenta también explica de qué modo se usa la información en su cheque.

2 of 5

6102OA-S DILLARDS PL 0221

• Si realiza un pago por Internet, debe realizarlo a través del sitio Web de Dillard’s, que aparece
en su estado de cuenta. Las horas de corte para los pagos por Internet se divulgarán en el
momento de la transacción.
• También puede realizar un pago en una tienda Dillard’s. Los pagos recibidos en la tienda
Dillard’s donde se realice el pago se abonarán en la fecha de la recepción.
Si no sigue estas instrucciones, sus pagos podrían no abonarse hasta cinco días después de
que los recibamos. Usted podrá pagar en cualquier momento, en forma total o parcial, el Saldo
Pendiente sin que se cobre ningún cargo adicional por pago por adelantado.
Es posible que se retenga parte de su línea de crédito disponible, a nuestro criterio, hasta que
su pago sea aceptado.
PAGOS IRREGULARES. Es posible que aceptemos pagos atrasados, pagos parciales o pagos
que reflejen “pagado por completo” (u otro texto restrictivo), sin perder nuestros derechos a
recibir el pago total. Si usted tiene la intención de reclamar el pago de su Cuenta por completo
con un monto inferior al Saldo Pendiente, debe enviarnos los pagos a: Wells Fargo Bank, N.A.,
P.O. Box 10311, Des Moines, IA 50306-0311.
APLICACIÓN DE PAGOS. Aplicamos los montos de pago equivalentes o inferiores al Pago
Mínimo Total Adeudado a nuestro criterio. Aplicamos los montos de todos los pagos que
excedan el Pago Mínimo Total Adeudado a los saldos con Tasas APR más altas, antes que a los
saldos con Tasas APR más bajas.
Todo pago que exceda el Pago Mínimo Total Adeudado se aplica en función de los saldos
reflejados en su último estado de cuenta. Registramos los pagos en el ciclo de facturación en
que los recibimos.
Otra información
CANCELACIÓN. Podremos cerrar su Cuenta en cualquier momento y por cualquier motivo.
Usted también puede cerrar la Cuenta en cualquier momento comunicándose con nosotros. Si
eso sucede, usted de todos modos debe pagar el saldo adeudado de acuerdo con los términos
de este Contrato. Si cerramos la Cuenta, el aviso podrá ser proporcionado a solamente a uno
de los titulares de la cuenta.
USUARIOS AUTORIZADOS. Usted puede solicitar Tarjetas adicionales para usuarios
autorizados. Usted es responsable de todos los cargos (incluidos los intereses y cargos
relacionados) realizados por el usuario autorizado. Si desea poner fin al privilegio de un usuario
autorizado para usar su Cuenta, antes de que podamos procesar la solicitud, usted debe hacer
lo siguiente:
• Recuperar y destruir la Tarjeta de dicha persona. Si no recupera y destruye la Tarjeta, usted
seguirá siendo responsable de cualquier cargo realizado después de que nos informe sobre
su voluntad de cancelar los privilegios, a menos que nos indique cancelar todas las Tarjetas
y establecer una Cuenta nueva para usted.
• Notificarnos acerca de su solicitud comunicándose con nosotros al número de teléfono o
escribiendo a la dirección que aparecen en su estado de cuenta.
En general, un usuario autorizado no está obligado en relación con esta Cuenta, ni es
responsable de ningún Saldo Pendiente ni de ningún otro cargo que usted o cualquier otro
usuario autorizado realicen. El privilegio de cada usuario autorizado finaliza automáticamente
en el momento del fallecimiento de todos los titulares de cuenta. Si alguna persona usa la Tarjeta,
dicho uso indica el acuerdo de esa persona de pagarnos y nosotros podríamos, a nuestro criterio,
intentar cobrarle a la persona el pago de cualquier Saldo Pendiente o de cualquier otro cargo
que dicha persona autorice. Usted acuerda notificar a cada usuario autorizado que él o ella está
sujeto a todas las secciones aplicables de este Contrato.
CÓMO NOS COMUNICAMOS CON USTED. Al proporcionarnos cualquier número de teléfono,
usted otorga expresamente permiso para que nos comuniquemos con usted a ese número en
relación con todas sus cuentas de Wells Fargo. Usted da su consentimiento para permitir que
nos comuniquemos con sus proveedores de servicios de telefonía anteriores, actuales y futuros
a fin de verificar la información que usted ha proporcionado, comparándola con los registros
de dichos proveedores. Usted acuerda que sus proveedores de servicios de telefonía podrán
verificar cualquier número de teléfono que usted haya proporcionado, comparándolo con el
nombre, la dirección y el estatus que figuren en los registros de dichos proveedores. Para que
podamos prestar servicios a su Cuenta o cobrar cualquier monto que pueda adeudar, usted
acuerda que podremos comunicarnos con usted usando cualquier información de contacto
relacionada con su Cuenta, incluido cualquier número (i) que usted nos haya proporcionado,
(ii) desde el que nos haya llamado o (iii) que hayamos obtenido y que consideremos
razonablemente que podemos usar para comunicarnos con usted. Podremos usar cualquier
medio para comunicarnos con usted. Esto puede incluir el contacto por parte de compañías que
trabajan en nombre nuestro para prestar servicios a sus Cuentas. Esto puede incluir dispositivos
de marcación automatizada, mensajes pregrabados o de voz artificial, correo postal, correo
electrónico, mensajes de texto y llamadas a su teléfono móvil, dispositivo inalámbrico o similar,
o mediante el servicio de Voz sobre Protocolo de Internet (VolP), o cualquier otra tecnología de
transmisión de datos o de voz. Usted es responsable de todo cargo del proveedor de servicios
que se genere como resultado de que nos comuniquemos con usted. Usted acuerda notificarnos
sin demora si cambia la información de contacto que nos proporciona. Esto incluye su nombre,
dirección postal, dirección (direcciones) de correo electrónico o número(s) de teléfono.
MONITOREO TELEFÓNICO. Podremos monitorear y grabar sus llamadas telefónicas con
nosotros.
TARJETAS PERDIDAS O ROBADAS Y RESPONSABILIDAD POR USO NO AUTORIZADO. Usted
acuerda comunicarse con nosotros inmediatamente si pierde o le roban su Tarjeta, o si cree que
están usando su Cuenta sin su permiso. Puede comunicarse con nosotros llamando al: 1-866834-6294 o escribiendo a P.O. Box 10347, Des Moines, IA 50306. Usted acuerda ayudarnos en
nuestra investigación del asunto. Si lo hace, no podrá ser considerado responsable por todo
uso no autorizado de su Cuenta, pero será responsable por el uso que haga cualquier persona
a la que usted le dé su Tarjeta o le permita usar su Cuenta.
INCUMPLIMIENTO. Su Cuenta estará en situación de incumplimiento si se produce lo siguiente:
• Usted no realiza el Pago Mínimo Total Adeudado a más tardar en la Fecha de Vencimiento
del Pago.

• Cualquier pago es devuelto por falta de fondos.
• Usted viola los términos de este Contrato.
• Usted hizo una declaración falsa en su solicitud.
• Usted ha presentado una declaración de bancarrota.
Si su Cuenta está en situación de incumplimiento, nuestros derechos incluyen, a modo de
ejemplo, negarnos a autorizar otras transacciones, cerrar su Cuenta y requerir el pago inmediato
del Saldo Pendiente. Si su Cuenta está en situación de incumplimiento, usted acuerda, además,
pagar nuestros costos de cobranza, honorarios de abogado y costas judiciales.
LEY QUE RIGE. La ley federal y las leyes de Dakota del Sur rigen este Contrato y su Cuenta.
CAMBIO EN LOS TÉRMINOS. Podemos cambiar este Contrato en cualquier momento.
Estos cambios se pueden aplicar a saldos existentes y futuros. Le daremos aviso por
escrito con antelación del (de los) cambio(s) y derecho a rechazar el (los) cambio(s), si la
ley lo exige. Podríamos reguerirle que cierre su Cuenta o tomar otras medidas si usted
rechaza los cambios.
CÓMO HACER VALER ESTE CONTRATO. Podríamos renunciar a la ejecución de cualquiera de
nuestros derechos o demorar dicha ejecución, sin perderlos. Podríamos renunciar a la ejecución
de un derecho contra uno de ustedes o demorar dicha ejecución, sin eximir al otro.
SEPARACIÓN DE DISPOSICIONES ILEGALES. Si se determina que alguna de las disposiciones
de este Contrato es ilegal, el resto del Contrato permanecerá vigente y la disposición ilegal se
considerará modificada para cumplir con lo establecido por la ley.
INTERCAMBIO DE INFORMACIÓN. Cuando usted solicitó una Cuenta, nos proporcionó a
nosotros y a Dillard’s, Inc. información sobre usted que podríamos compartir entre nosotros.
Dillard’s, Inc. usará la información en relación con el programa de crédito y, por ejemplo, para
crear y actualizar sus registros y ofrecerle beneficios especiales. Las leyes federales o estatales
pueden limitar nuestra capacidad para compartir su información personal y/o de la Cuenta con
Dillard’s Inc., aunque usted haya proporcionado esta autorización. Nosotros cumplimos con
estas leyes federales y estatales. Consulte el Aviso de Privacidad de Dillard’s de Wells Fargo Bank,
N.A., para obtener más información acerca de cómo recopilamos, compartimos y protegemos
su información, y también sobre el modo en que usted puede limitar una parte, pero no todo,
el intercambio de información.
INFORMACIÓN DE CRÉDITO. Usted promete que toda la información que nos dé en relación
con su Cuenta es verdadera y completa. Usted comprende que nosotros confiamos en esta
información para abrir su Cuenta y extenderle crédito. Usted nos autoriza a investigar sus
registros de crédito, empleo, activos e ingresos, y a verificar sus referencias de crédito. También
nos autoriza a obtener informes de crédito sobre su persona ocasionalmente.
PRESENTACIÓN DE INFORMACIÓN. Usted acuerda que podemos reportar su cumplimiento,
su estatus y su historial conforme a este Contrato a agencias de informes de crédito del
consumidor. Si usted solicita Tarjetas adicionales en su Cuenta para terceros, comprende que
podríamos reportar información de la Cuenta en su nombre, así como en nombre de dichos
titulares adicionales de la tarjeta. Si usted no cumple con los términos de la Cuenta según se
definen en el presente Contrato, dicha información se proporcionará a las agencias de informes
de crédito y podría generar una referencia negativa en su informe de crédito y en los informes
de crédito de cualquier titular adicional de la tarjeta. Usted tiene derecho a disputar la exactitud
de la información que hemos reportado escribiéndonos a Wells Fargo Bank, N.A., P.O. Box 14517,
Des Moines, IA 50306, y describiendo la información específica que sea incorrecta o esté en
disputa y el motivo de cualquier disputa con la documentación de respaldo. En caso de que
exista información que usted considere que está relacionada con un robo de identidad, deberá
proporcionarnos un informe de robo de identidad.
CESIÓN. Tenemos el derecho de ceder su Cuenta a otro acreedor. El otro acreedor tiene,
entonces, todos los derechos que le cedamos. Usted no tiene derecho a ceder su Cuenta.
Planes Club
Estos términos se aplican a los Planes Club.
PLANES CLUB. Ocasionalmente, determinadas compras en Dillard’s podrían calificar como
una compra de un Plan Club. Si un Comprobante de Venta indica que se aplican los términos
del Plan Club, la compra se regirá por los términos del Plan Club (descritos a continuación) y
los términos de este Contrato. Usted acepta los términos del Plan Club al realizar la compra.
• Plan Club 12. Si un Comprobante de Venta indica que se aplican los términos del Plan Club
12, esto significa que el pago es el monto requerido para pagar por completo el saldo de
compra inicial en 12 pagos mensuales equivalentes. Debido al redondeo, el pago final podría
ser menor que los otros pagos.
• Plan Club 24. Si un Comprobante de Venta indica que se aplican los términos del Plan Club
24, esto significa que el pago es el monto requerido para pagar por completo el saldo de
compra inicial en 24 pagos mensuales equivalentes. Debido al redondeo, el pago final podría
ser menor que los otros pagos.
No le cobraremos intereses sobre el saldo de un Plan Club 12 o un Plan Club 24. El monto del
pago para cualquier saldo de un Plan Club 12 o un Plan Club 24 se incluye en el Pago Mínimo
Total Adeudado (consulte la sección Pago Mínimo Total Adeudado).
Certificación de Intérprete
CERTIFICACIÓN DE INTÉRPRETE. ESTA CERTIFICACIÓN SE APLICA SI USTED ELIGIÓ
CONVERSAR CON NOSOTROS SOBRE LA APERTURA DE UNA CUENTA EN ESPAÑOL, CHINO,
COREANO, VIETNAMITA O TAGALO. Al firmar la solicitud de tarjeta de crédito, utilizar o aceptar
de otro modo la Tarjeta o la Cuenta relacionada que se le haya otorgado, usted certifica a
Wells Fargo Bank, N.A., (nosotros) que: (1) Usted ha recibido y analizado este Contrato con su
intérprete, y que usted y su intérprete han tenido la oportunidad de analizar con nosotros los
términos y condiciones contenidos en estos documentos adjuntos; (2) Su intérprete tiene por lo
menos 18 años de edad y habla con fluidez en inglés y en el idioma en el que usted haya elegido
analizar con nosotros los términos y condiciones de su Cuenta, y no es un empleado ni ofrece
sus servicios a través del Comerciante; (3) Usted entiende y acepta los términos y condiciones
contenidos en estos documentos adjuntos tal como se encuentran redactados.

3 of 5

6102OA-S DILLARDS PL 0221

INTERPRETER CERTIFICATION. THIS CERTIFICATION APPLIES IF YOU CHOSE TO DISCUSS
OPENING AN ACCOUNT WITH US IN SPANISH, CHINESE, KOREAN, VIETNAMESE, OR TAGALOG.
By signing the credit card application, using or otherwise accepting the Card or related
Account issued to you, you certify to Wells Fargo Bank, N.A. (us) that: (1) You have received and
discussed this Agreement with your interpreter and that you and your interpreter have been
given an opportunity to discuss with us the terms and conditions contained in these enclosed
documents; (2) Your interpreter is at least 18 years old and is fluent both in English and in the
language in which you chose to discuss with us the terms and conditions of your Account, and
is not employed by or made available through the Merchant; (3) You understand and agree to
the terms and conditions contained in these enclosed documents as written.
翻譯員認證。
翻譯員認證。本認證於當您選擇以西班牙語、中文、韓語、越南語或塔加拉族語與我們
討論開戶事宜之時適用。一旦您簽署信用卡申請表，使用或以其他方式接受核發給您的
信用卡或相關帳戶，即表示您向富國銀行 (Wells Fargo Bank, N.A.)（我們）證明：(1) 您已
經收到並與您的翻譯員討論過本協議，並且您和您的翻譯員都有機會與我們討論這些所
附文件中的條款和條件；(2) 您的翻譯員至少年滿 18 歲，並具有流利的英語能力且深諳您
所選與我們討論您的帳戶條款和條件的語言，且其並未受僱於商家或由商家提供；(3) 您
理解並同意遵守這些所附文件中的書面條款和條件。
통역사 증명. 이 증명은 계좌 개설에 관한 사항을 스페인어, 중국어, 한국어, 베트남어
또는 타갈로그어로 논의하기로 하신 경우에적용됩니다. 신용카드 신청서에 서명하시고,
회원님께 발급된 신용카드 또는 관련 계좌를 사용하거나 수락하시는 것은 회원님께서
(1) 본 계약서를 수령하고 그 내용을 담당 통역사와 함께 검토했으며 회원님과 담당
통역사는 동봉된 문서에 기재된 약관의 내용을 당사와 함께 논의할 기회를 부여받았고, (2)
담당 통역사는 18세 이상이며 회원님 계좌의 약관에 관해 당사와 논의할 때 회원님께서
사용하기로 선택하신 언어와 영어 모두에 능통한 사람이고 Wells Fargo Bank, N.A.(
미국)에서 채용하거나 알선한 인력이 아니며, (3) 이 동봉된 문서에 기록된 약관의 내용을
회원님께서 이해하고 그에 동의했음을 Wells Fargo Bank, N.A.(미국) 측에 증명하신다는
의미입니다.
XÁC NHẬN VỀ THÔNG DỊCH VIÊN. PHẦN XÁC NHẬN NÀY ĐƯỢC ÁP DỤNG NẾU QUÝ
VỊ ĐÃ CHỌN THẢO LUẬN VỀ VIỆC MỞ TRƯƠNG MỤC TẠI NGÂN HÀNG CHÚNG TÔI
BẰNG TIẾNG TÂY BAN NHA, TRUNG QUỐC, HÀN QUỐC, VIỆT NAM HOẶC TAGALOG.
Với việc ký đơn xin cấp thẻ tín dụng, sử dụng hay nếu không thì chấp nhận Thẻ này hay Trương
mục liên quan được cấp cho quý vị, quý vị xác nhận với Wells Fargo Bank, N.A. (chúng tôi) rằng:
(1) Quý vị đã nhận được và thảo luận với thông dịch viên của mình về Thỏa thuận này, và quý vị
cũng như thông dịch viên đều đã có cơ hội trao đổi với chúng tôi về các điều khoản và điều kiện
ghi trong những tài liệu đính kèm này; (2) Thông dịch viên của quý vị phải từ 18 tuổi trở lên, thông
thạo cả tiếng Anh cũng như ngôn ngữ mà quý vị đã chọn sử dụng để trao đổi với chúng tôi về các
điều khoản và điều kiện của Trương mục, và không phải là nhân viên của Bên bán hoặc được Bên
bán giới thiệu ; (3) Quý vị hiểu và đồng ý với nguyên văn nội dung của các điều khoản và điều
kiện được ghi trong những tài liệu đính kèm này.
SERTIPIKASYON NG TAGAPAGSALING-WIKA. ILALAPAT ANG SERTIPIKASYONG ITO KUNG
NAPILI MONG TALAKAYIN ANG PAGBUBUKAS NG ACCOUNT SA AMIN SA SPANISH, CHINESE,
KOREAN, VIETNAMESE, O TAGALOG. Sa paglagda ng aplikasyon sa credit card, paggamit o
kundi man ay pagtanggap ng Card o kaugnay na Account na ibinigay sa iyo, pinatototohanan
mo sa Wells Fargo Bank, N.A. (sa amin) na: (1) Natanggap mo at tinalakay ang Kasunduang
ito sa iyong tagapagsaling-wika at ikaw at ang iyong tagapagsaling-wika ay nabigyan ng
pagkakataong talakayin sa amin ang mga tuntunin at kundisyon na matatagpuan sa mga
nakalakip na dokumentong ito; (2) Ang iyong tagapagsaling-wika ay hindi mas bata sa 18 taong
gulang at lubos na marunong sa Ingles at sa wika na napili mo para talakayin sa amin ang mga
tuntunin at kundisyon ng iyong Account, at hindi naka-empleyo sa o nakuha sa pamamagitan
ng Mangangalakal (o “Merchant”); (3) Nauunawaan at sinasang-ayunan mo ang mga tuntunin
at kundisyong nakasaad sa mga nakalakip na dokumentong ito ayon sa nakasulat.
Avisos
EN NUEVA JERSEY: Ciertas disposiciones de este Contrato están sujetas a la ley aplicable.
Como resultado, podrían ser nulas, no ejecutables o inaplicables en algunas jurisdicciones. Sin
embargo, ninguna de estas disposiciones es nula, no ejecutable o inaplicable en Nueva Jersey.
EN OHIO: Las leyes de Ohio contra la discriminación exigen que todos los acreedores pongan
el crédito a disposición de todos los clientes que demuestren la debida solvencia en forma
equitativa; y que las agencias de informes de crédito mantengan por separado los historiales
de crédito de cada individuo, si así se lo solicita. La Ohio Civil Rights Commission (Comisión de
Derechos Civiles de Ohio) administra el cumplimiento de esta ley.
EN WISCONSIN: Si usted está casado, comuníquese con nosotros de inmediato al 1-855-4122787 (en inglés) y proporciónenos el nombre y la dirección de su cónyuge. La ley nos exige que
le informemos a su cónyuge que usted ha abierto una cuenta con nosotros. Además, tenga en
cuenta que ninguna disposición de un convenio de bienes conyugales (incluido un Acuerdo
Reglamentario de Propiedad Individual conforme a la Sección 766.587 de los Estatutos de
Wisconsin), una declaración unilateral que clasifique los ingresos provenientes de un bien
separado conforme a la Sección 766.59 o un decreto de un tribunal conforme a la Sección 766.70
afectará negativamente al acreedor, a menos que este haya recibido una copia del documento
antes de la transacción de crédito o tenga conocimiento real de sus disposiciones adversas en
el momento en que se incurra en la obligación.
AVISO SOBRE LA MILITARY LENDING ACT (LEY DE PRÉSTAMOS PARA MILITARES): La
ley federal brinda protecciones importantes para los miembros de las Fuerzas Armadas y
sus dependientes en relación con las extensiones de crédito al consumidor. En general, los
costos del crédito al consumidor para un miembro de las Fuerzas Armadas y su cónyuge o
dependiente no pueden exceder una tasa porcentual anual del 36 por ciento. Esta tasa debe
incluir, según corresponda para la cuenta o transacción de crédito: los costos asociados con
las primas del seguro de crédito, los cargos por productos auxiliares vendidos en relación con
la transacción de crédito, cualquier cuota de solicitud cobrada (que no sean ciertas cuotas de
solicitud correspondientes a cuentas o transacciones de crédito específicas) y cualquier cargo
por participación cobrado (que no sean ciertos cargos por participación correspondientes a una
cuenta de tarjeta de crédito). Tenga en cuenta lo siguiente: NO se aplican primas del seguro de
crédito, cargos por productos auxiliares ni cuotas de solicitud con esta Cuenta.

Puede comunicarse con nosotros al 1-844-363-9971 para obtener información sobre la Tasa
Porcentual Anual para Militares y una descripción de su obligación de pago.
El Acuerdo de Arbitraje no se aplica en su caso si usted está cubierto por la Military Lending
Act (Ley de Préstamos para Militares) ni las disposiciones de renuncia a cualquier derecho a
presentar recursos legales en virtud de cualquier ley estatal o federal en la medida requerida
por la Ley de Préstamos para Militares.
Sus derechos en relación con la facturación: Conserve este documento para uso futuro
Este aviso le informa sobre sus derechos y nuestras responsabilidades en virtud de la Fair Credit
Billing Act (Ley sobre Facturación de Crédito Equitativa).
Qué hacer si encuentra un error en su estado de cuenta
Si cree que hay un error en su estado de cuenta, escríbanos a:
Dillard’s Card Services / Wells Fargo Bank, N.A.
P.O. Box 522
Des Moines, IA 50306-0522
En su carta, proporciónenos la siguiente información:
• Información de la cuenta: su nombre y número de Cuenta.
• Monto en dólares: el monto en dólares del presunto error.
• Descripción del problema: si cree que hay un error en su cuenta, describa lo que cree que
está mal y por qué cree que es un error.
Debe comunicarse con nosotros:
• En el transcurso de 60 días después de que haya aparecido el error en su estado de cuenta.
• Por lo menos 3 días laborables antes de que se programe un pago automatizado si desea
suspender un pago respecto del monto que cree que es erróneo.
Debe notificarnos por escrito sobre cualquier posible error. Puede llamarnos, pero si lo hace,
no estamos obligados a investigar cualquier posible error y es probable que deba pagar el
monto en cuestión.
Qué sucederá después de que recibamos su carta
En cuanto recibamos su carta, tendremos que tomar dos medidas:
1. En el transcurso de los 30 días posteriores a la recepción de su carta, debemos informarle
que la hemos recibido. También le informaremos si ya hemos corregido el error.
2. En el transcurso de los 90 días posteriores a la recepción de su carta, debemos corregir el
error o explicarle por qué consideramos que la cuenta es correcta.
Mientras investigamos si ha habido un error o no:
• No podemos intentar cobrar el monto en cuestión ni reportar que usted se encuentra en
mora respecto de ese monto.
• El cargo en cuestión podría permanecer en su estado de cuenta, y nosotros podríamos
seguir cobrándole intereses sobre ese monto.
• Aunque no tenga que pagar el monto en cuestión, usted es responsable del monto restante
de su saldo.
• Podemos aplicar cualquier monto impago en función de su límite de crédito.
Después de finalizar nuestra investigación, sucederá alguno de estos dos hechos
• Si cometimos un error: Usted no tendrá que pagar el monto en cuestión ni los intereses u
otros cargos en relación con ese monto.
• Si no consideramos que haya habido un error: Usted tendrá que pagar el monto en cuestión,
junto con los intereses y cargos aplicables. Le enviaremos una declaración del monto
adeudado por usted y la fecha en que vence el pago. Podemos reportar entonces que usted
se encuentra en mora si no paga el monto que creemos que adeuda.
Si recibe nuestra explicación, pero sigue considerando que la cuenta es incorrecta, debe
escribirnos en el transcurso de 10 días e indicarnos que sigue negándose a pagar. Si lo hace,
no podremos informar que usted se encuentra en mora sin reportar también que usted está
cuestionando su cuenta. Debemos decirle el nombre de cualquier tercero a quien le hayamos
reportado que usted se encuentra en mora, y debemos informarles a esas organizaciones
cuando el asunto haya sido resuelto entre nosotros.
Si no cumplimos con todas las reglas arriba mencionadas, no tendrá que pagar los primeros
$50 del monto que cuestione, incluso si su cuenta es correcta.
Sus derechos si no está satisfecho con sus compras con tarjeta de crédito
Si no está satisfecho con los bienes o servicios que ha comprado con su tarjeta de crédito y ha
intentado corregir de buena fe el problema con el comercio, usted puede tener derecho a no
pagar el monto restante adeudado de la compra.
Para ejercer este derecho, todos los siguientes enunciados deben ser ciertos:
1. La compra debe haber sido realizada en su estado de residencia o dentro de las 100 millas
de su dirección postal actual, y el precio de compra debe haber sido superior a $50. (Nota:
No se aplican estos requisitos si su compra se basó en un anuncio publicitario que le
enviamos por correo postal, o si somos dueños de la compañía que le vendió los bienes
o servicios).
2. Usted debe haber usado su tarjeta de crédito para la compra. No califican las compras
realizadas con adelantos en efectivo de un ATM ni con un cheque con acceso a su Cuenta
de Tarjeta de Crédito.
3. No debe haber pagado todavía la compra en su totalidad.
Si se cumplen todos los criterios arriba mencionados y aun así no está satisfecho con la
compra, comuníquese con nosotros por escrito a:
Dillard’s Card Services / Wells Fargo Bank, N.A.
P.O. Box 522
Des Moines, IA 50306-0522
Mientras investigamos, se aplican las mismas reglas para el monto en disputa indicadas
arriba. Después de finalizar nuestra investigación, le comunicaremos nuestra decisión. En ese
momento, si pensamos que usted adeuda un monto y no lo paga, podríamos reportar que
usted se encuentra en mora.

4 of 5

6102OA-S DILLARDS PL 0221

CONTRATO DE TARJETA DE CRÉDITO DILLARD’S
Términos Importantes de su Cuenta de Tarjeta de Crédito
Tasas de Interés y Cargos por Intereses
Tasa Porcentual Anual (APR, por sus
siglas en inglés) para Compras

24.99% Esta Tasa APR variará con el mercado conforme a la Tasa Preferencial de EE. UU.

Cómo evitar pagar intereses sobre
compras
Cargo Mínimo por Intereses

Su fecha de vencimiento es al menos 23 días después del cierre de cada ciclo de facturación. No
le cobraremos intereses sobre las compras si usted paga la totalidad de su saldo cada mes a más
tardar en la fecha de vencimiento.
Si se le cobran intereses, el cargo no será inferior a $1.00.

Para obtgener Sugerencias sobre
Tarjetas de Crédito de la Oficina
para la Protección Financiera del
Consumidor

Par
ara
a obtener
obtener más información
información acer
acercca de los fact
factor
ores
es a tomar
tomar en consider
consideración
ación al solicitar o
usar una tarjeta de cr
crédit
édito
o, visite
visite el sitio Web de la Oficina
Oficina para
para la Pr
Prot
otec
ección
ción Financier
Financiera
a del
Consumidor en https://w
ttps://ww
ww.c
.consumer
onsumerfinanc
finance
e.go
.gov/es
v/es//.

Cargos
Cuota Anual
Cargos por Penalidad
• Pago Atrasado

Ninguno
Hasta $40.00

Cómo calcularemos su saldo: Usamos un método denominado “saldo diario promedio (que incluye nuevas compras).” Consulte su
Contrato para obtener más detalles.
Derechos en relación con la facturación: Puede encontrar información sobre sus derechos para disputar transacciones y cómo ejercer
esos derechos en su Contrato.
Cómo calcularemos su cargo por pago atrasado: El cargo será el monto que resulte menor entre el Pago Mínimo Total Adeudado o
$29.00. Para cualquier evento posterior que ocurra en el transcurso de un período ininterrumpido de seis ciclos de facturación, el cargo será
el monto que resulte menor entre el Pago Mínimo Total Adeudado o $40.00.
Cómo calcularemos sus Tasas APR Variables: Las Tasas APR usadas para calcular los intereses para compras en su Cuenta se calculan
sumando un margen de 21.74 puntos porcentuales a la Tasa Preferencial de EE. UU. para ese Ciclo de Facturación. La tasa varían con el
mercado conforme a la Tasa Preferencial de EE. UU. Consulte su Contrato para obtener más detalles.
La información relacionada con el costo del crédito descrito en este Contrato es correcta al mes de febrero de 2021. Esta información puede
haber cambiado después de esa fecha. Para obtener información sobre los posibles cambios, llame al 1-866-834-6294.
ACUERDO DE ARBITRAJE
Arbitraje Obligatorio. Usted y Wells Fargo Bank, N.A. (el “Banco”), incluidos los cesionarios, representantes, empleados, funcionarios, directores, accionistas, compañías
matrices, subsidiarias, filiales, predecesores y sucesores del Banco, acuerdan que si surge una Disputa (según se define a continuación) entre usted y el Banco, a solicitud de
usted o del Banco, la Disputa se resolverá mediante el siguiente proceso de arbitraje. No obstante, el Banco no iniciará un arbitraje para cobrar una deuda de consumidores,
pero se reserva el derecho de llevar a arbitraje todas las otras disputas con sus clientes consumidores. Una disputa es cualquier desacuerdo entre usted y el Banco que no haya
sido resuelto. Incluye todo desacuerdo que se relacione de alguna forma con su Cuenta de Tarjeta de Crédito (la “Cuenta”) o servicios relacionados. Incluye reclamos basados
en promesas o contratos incumplidos, actos ilícitos u otras acciones ilegítimas. Además, incluye los reclamos establecidos por ley, por el derecho común y por el derecho de
equidad. Una Disputa también incluye cualquier desacuerdo con respecto al significado o a la aplicación de este Acuerdo de Arbitraje. Este Acuerdo de Arbitraje continuará
en vigencia después del pago o cierre de su Cuenta. Usted entiende y acuerda que usted y el Banco renuncian al derecho a un juicio por jurado o a un juicio ante un
juez en un tribunal público. Como única excepción a este Acuerdo de Arbitraje, usted y el Banco conservan el derecho de presentar ante un tribunal de reclamos de menor
cuantía toda disputa que esté comprendida dentro de la jurisdicción de dicho tribunal. Si usted o el Banco no se someten al arbitraje obligatorio después de formulada una
demanda legítima, la parte que incumpla será responsable de todos los costos y gastos incurridos por la otra parte al hacer valer el arbitraje.
Procedimiento de Arbitraje; Divisibilidad. Usted o el Banco pueden presentar, en cualquier momento, una Disputa a arbitraje obligatorio, independientemente de que se
haya presentado o no una demanda o iniciado otro procedimiento anteriormente. Ni usted ni el Banco tendrán derecho a unir o consolidar disputas a favor o en contra
de otros en ningún arbitraje, ni a incluir en ningún arbitraje disputa alguna formulada en calidad de representante o miembro de una demanda colectiva, ni de
actuar en calidad de fiscal general privado. Cada arbitraje, incluida la selección del (de los) árbitro(s), será administrado por la American Arbitration Association [Asociación
Americana de Arbitraje] (AAA, por sus siglas en inglés), u otro administrador que usted y el Banco escojan de mutuo acuerdo (se hará referencia de aquí en adelante a la
AAA o al administrador que se escoja de mutuo acuerdo como el “Administrador del Arbitraje”), de acuerdo con las Reglas de Arbitraje Comercial y los Procedimientos
Suplementarios para Disputas Relacionadas con el Consumidor (las “Reglas de la AAA”). En la medida en que exista alguna discrepancia entre las Reglas de la AAA y este
Acuerdo de Arbitraje, este Acuerdo de Arbitraje prevalecerá. El (los) árbitro(s) debe(n) ser miembro(s) del colegio de abogados del estado donde se lleve a cabo el arbitraje,
con especialización en el derecho sustantivo pertinente al tema de la Disputa. Ninguno de los árbitros ni las otras partes del proceso de arbitraje podrán divulgar la existencia,
el contenido o los resultados del arbitraje, salvo las divulgaciones de información que una parte deba revelar en el curso normal de las operaciones, o de acuerdo con las
leyes o los reglamentos aplicables. Usted y el Banco (las “Partes”) acuerdan que en esta relación: (1) Las Partes están participando en transacciones que involucran el comercio
interestatal; y (2) este Acuerdo de Arbitraje y cualquier arbitraje resultante se regirán por las disposiciones de la Federal Arbitration Act (Ley Federal de Arbitraje, Título 9 del
Código de Estados Unidos) y, en la medida en que cualquier disposición de esa Ley sea inaplicable, no ejecutable o no válida, por las leyes del estado de Dakota del Sur. Si
se determina que alguna disposición de este Acuerdo de Arbitraje que trata sobre una demanda colectiva, arbitrajes colectivos, acciones presentadas por un fiscal general
privado, otra acción representativa, unión o consolidación es ilegal o no ejecutable, dicha disposición no válida no podrá ser separada del conjunto y este Acuerdo de Arbitraje
será no ejecutable en su totalidad.
Conservación de derechos. Este Acuerdo de Arbitraje no prohíbe a las Partes el ejercicio de cualquier derecho legítimo o el uso de cualquier otro recurso disponible para
conservar, ejecutar u obtener la posesión de bienes raíces o bienes muebles, ejercer recursos de autoayuda, incluidos los derechos de compensación y recuperación, u obtener
recursos provisionales o auxiliares, tales como interdictos, incautación, retención jurídica de bienes o el nombramiento de un síndico por parte de un tribunal con jurisdicción
competente. Toda ley de prescripción aplicable a cualquier Disputa se aplica a todo arbitraje entre las Partes. Las disposiciones de este Acuerdo de Arbitraje continuarán en
vigencia luego de la terminación, la modificación o el vencimiento de la Cuenta o de toda otra relación entre usted y el Banco.
Cargos y Gastos del Arbitraje. Los cargos del arbitraje se determinarán por las reglas o los procedimientos del Administrador del Arbitraje, a menos que estén limitados por
la ley aplicable. Consulte con el Administrador del Arbitraje para determinar los cargos aplicables a todo arbitraje que usted pueda presentar. Si la ley aplicable del estado en el
cual usted abrió su Cuenta limita la cantidad de cargos y gastos que usted debe pagar, entonces ninguna asignación de cargos y gastos que se le haga a usted deberá exceder
esta limitación. Salvo que esto sea incompatible con la ley aplicable, cada uno de nosotros será responsable de los gastos por honorarios de nuestro propio abogado, peritos
y testigos, independientemente de quién de nosotros prevalezca en el arbitraje.
Military Lending Act. El Acuerdo de Arbitraje no se aplica en su caso si usted está cubierto por la Military Lending Act (Ley de Préstamos para Militares) ni las disposiciones de
renuncia a cualquier derecho a presentar recursos legales en virtud de cualquier ley estatal o federal en la medida requerida por la Ley de Préstamos para Militares. Consulte
el Aviso sobre la Military Lending Act (Ley de Préstamos para Militares) en el Contrato para obtener más información.
5 of 5

6102OA-S DILLARDS PL 0221

